Office of Inspector General




September 22, 2006

MEMORANDUM

TO:                  Sudan Field Office, Mission Director Katherine Almquist

FROM:                Regional Inspector General/Pretoria Nathan S. Lokos /s/

SUBJECT:             Memorandum on Fieldwork Conducted at the USAID/Sudan Field Office in
                     Support of the Fiscal Year 2006 USAIDFinancial Statement Audit (Report No. 4-
                     650-06-002-S)

This memorandum transmits our findings and recommendations for assuring the fair
presentation of financial statements and improving the internal control structure for the
USAID/Sudan Field Office. Your comments on our draft memorandum were considered and
are included as an attachment to this final memorandum.

This memorandum includes three recommendations. In response to the draft memoradum
USAID/Sudan Field Office concurred with all of the recommendations and included corrective
action plans and target completion dates. Management decisions have been reached on all
three recommendations.      Please provide documentation supporting final action for
Recommendation Nos. 1, 2, and 3 to the Bureau for Management, Audit Performance and
Compliance Division.

This memorandum is not an audit report. The findings were developed during our Audit of the
USAID/Sudan Field Office in Support of the Fiscal Year 2006 USAID Financial Statement Audit.
We are issuing this memorandum because the findings from the audit will be part of a worldwide
effort that is not expected to be issued until November 2006. We believe that these
recommendations should be brought to your attention and acted upon before that time.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
throughout this audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
BACKGROUND

During the period July 17, 2006, to August 11, 2006, the Regional Inspector General
(RIG)/Pretoria performed the Audit of the USAID/Sudan Field Office in Support of the Fiscal
Year 2006 USAID Financial Statement Audit.1 This resulted in an audit summary that was
prepared and sent by RIG/Pretoria to the Office of Inspector General in Washington D.C. The
audit summary had identified 12 recommendations to assure the fair presentation of financial
information and improve the internal control structure for the USAID/Sudan Field Office. Three
of the twelve recommendations provided in the audit summary are also being provided in the
discussion section of this memorandum.

DISCUSSION

RIG/Pretoria is including the following findings and associated recommendations in this
memorandum because Recommendation Nos. 1 and 2 were considered time sensitive, needing
to be completed by the end of fiscal year 2006 in order to assure the fair presentation of
financial information for the USAID/Sudan Field Office. Recommendation No. 3 is being
presented in this memorandum in order to strengthen the procurement process used by the
Mission.

Accounts Receivable Should Be Posted to Phoenix

Recent communications from USAID’s Office of the Chief Financial Officer require missions to
directly enter their accounts receivable information into Phoenix rather than through DATA
CALL, an internet-based information collection tool. Despite this requirement, as of the time of
our audit, USAID/Sudan Field Office had not entered its accounts receivable into Phoenix,
reportedly due to an initial absence of clear guidance from USAID/Washington. These accounts
receivable numbered 94 and totaled approximately $87,000. As a result, the Mission’s accounts
receivable are not reflected in USAID’s account balances. We are making the following
recommendation to address this situation:

Recommendation No. 1: We recommend that USAID/Sudan Field Office immediately post
accounts receivable into Phoenix so that the proper accounts receivable balances are available
for the end of fiscal year 2006.

Data Certification Needs to Be Carried Out

USAID’s Office of the Chief Financial Officer’s DATA CALL has been developed to collect data
from USAID missions for the preparation of USAID’s financial statements. For the past several
years, data was collected on an annual basis. Beginning in FY 2003, Office of Management
and Budget (OMB) mandated that all agencies prepare financial statements on a quarterly
basis. To help meet OMB's accelerated financial statement reporting deadline, the required
input and certification for the quarter had to be completed no later than the eighth day of the
month following the end of the quarter. USAID’s web tool guidelines state that the DATA CALL
certification is extremely important.



1
  The USAID/Sudan Field Office relied upon accounting staff from the USAID/East Africa/Regional
Financial Management Center to assist with and handle various accounting activities.




                                                                                              2
The Mission’s Khartoum office submitted the required account balances for USAID/Sudan Field
Office into the DATA CALL, but the USAID/East Africa/Regional Financial Management Center
chief accountant did not certify the DATA CALL, believing that the DATA CALL was no longer
required with the implementation of Phoenix. The web tool guidelines also state that if missions
do not enter their data and certify the reports, it could adversely affect the financial statement
opinion for the entire agency. In this instance, USAID/Washington did not receive the certified
balances for June 30, 2006, thus the Agency's relevant quarterly financial statement balances
are understated, including accounts receivable.

Recommendation No. 2: We recommend that USAID/Sudan Field Office (1) submit all required
data except accounts receivable through the web tool, as of September 30, 2006, and (2) work
with USAID/East Africa/Regional Financial Management Center to certify this data by October 8,
2006.

Procurement Issue

On February 20, 2004, USAID/Sudan Field Office entered into an indefinite quantity contract
with Express Travel Group to provide logistical support services. Among such services, were
air and road transport, accommodation and meals, travel, workshops in Nairobi and Southern
Sudan, and studies. On September 27, 2004, the contract type was changed to a
“requirements contract,” with the disbursements to be accomplished through work orders.
Under the contract’s statement of work are examples of the logistical services, including U.S.
consultants conducting studies in Southern Sudan.

Based on the audit work we performed at the Mission as part of the FY 2006 Financial
Statement Audit, it appears that the authority in the Express Travel Group to procure U.S.
consultants may circumvent the competition requirements included in USAID Automated
Directives System (ADS) and the Federal Acquisition Regulation (FAR). ADS Section 302.3.1.1
notes that USAID executes all direct procurement in accordance with the FAR. The FAR states
that contracting officers should promote and provide for full and open competition in soliciting
offers and awarding government contracts.2 The FAR also cites the U.S. Code, which states
that the head of an agency, with limited exceptions, shall obtain full and open competition in
conducting procurements for property or services.

Despite these requirements for full and open competition, in September 2005 the Mission
issued a work order to the Express Travel Group for the noncompetitive procurement of a
specific consultant and a researcher to provide reports on various subjects. This work order
totaled $262,099, which is over and above the threshold set for the limited justification for less
than full and open competition cited in the ADS.3 As a result of passing this procurement
through the Express Travel Group contract, a justification for less than full and open competition
for this procurement was not subjected to the review of the Agency Competition Advocate as
required for all awards exceeding $250,000.

We believe that while the authority to procure consultants may have originally been included in
the Express Travel Group contract to expedite the procurement process, the proven potential it
provides to circumvent the Agency’s controls over full and open competition raise the risk that


2
 This is found in FAR 6.101.
3
 ADS 302.3.4.1 states that overseas contracts of $250,000 or less may be exempted from full and open
competition without justification.




                                                                                                       3
USAID/Sudan Field Office will perform procurements that do not comply with USAID and
Federal Government requirements. Accordingly, we are making the following recommendation:

Recommendation No. 3: We recommend that USAID/Sudan Field Office take immediate action
to modify the Express Travel Group’s contract so that in the future they will not be able to
procure consultants for the Mission.

EVALUATION OF MANAGEMENT COMMENTS

In responding to our draft memorandum USAID/Sudan Field Office management concurred with
Recommendation Nos. 1, 2, and 3. For Recommendation No. 1, the Mission indicated that they
have posted all accounts receivable in Phoenix, except those which may exist in their Khartoum
office. The remaining accounts receivable will be entered into Phoenix by the end of September
2006. The Mission stated that for Recommendation No. 2, it had received additional clarification
from the Office of the Chief Financial Officer. Based on this clarification, Mission management
understands that the Mission must continue to capitalize all property, plant, and equipment
costs over $25K into the web reporting tool. They also noted that by September 30, 2006, they
will enter into the web reporting tool all qualified assets as well as possible foreign service
nationals’ salary and benefits. For Recommendation No. 3, the Mission indicated that the
Acquisition Office is working through the Regional Legal Advisor to modify the Express Travel
Group’s contract to prohibit the procurement of consultants for the Mission, this will be
completed by the end of September 2006. In the interim, Mission staff was informed on
September 11, 2006, that all such procurements by Travel Express Group were prohibited
immediately. Based upon the above information, we consider that a management decision has
been reached for Recommendation Nos. 1, 2, and 3.

Management’s comments are included in their entirety in the attachment to this memorandum.




                                                                                              4
                                                                  Attachment




 Memorandum
 To:      Regional Inspector General, Nathan S. Lokos
 From: USAID/Sudan, Mission Director Katherine Almquist
 Date:    9/20/2006

SUBJECT:           Response to Memorandum regarding the Assuring of the
Fair Presentation of Financial Statements and Improving of Internal Control
Structure for the USAID/Sudan Field Office (Report No. 4-650-06-00X-S)

This memorandum is to respond to your Memo dated September 7, 2006
regarding 3 of the 12 recommendations made by the audit team in August.

We are in agreement with all three and are including our corrective action
plan and target completion dates.

Recommendation No. 1: We recommend that USAID/Sudan Field Office
immediately post accounts receivable into Phoenix so that the proper
accounts receivable balances are available for the end of fiscal year 2006.

We agree with this recommendation and have posted all accounts receivable
in Phoenix except for those which may exist in our Khartoum office. These
remaining accounts receivable will be entered in Phoenix by end of the
month.

Recommendation No. 2: We recommend that USAID/Sudan Field
Office submit and certify all required data except accounts receivable
through the web tool, as of September 30, 2006.

We agree with this recommendation. After some additional clarification
from the CFO’s office we now understand that we must continue to enter all
capitalizable costs for property plant and equipment over $25K into the web




                                                                              5
reporting tool. We are currently reviewing the recently completed inventory
property plant and equipment and will enter all qualified assets by September
30, 2006. Additionally, there may be some accrual information related to our
FSN salary and benefits that will need to be entered. This information will
also be entered by September 30, 2006.

Recommendation No. 3: We recommend that USAID/Sudan Field Office
take immediate action to modify Express Travel Group’s contract so that in
 the future they will not be able to procure consultants for the Mission.

We agree with the recommendation. The Acquisition office is currently
working with RLA to modify the Express Travel Group’s contract to prohibit
the procurement of consultants for the Mission. This action will be completed
by end of month. Additionally, this issue was discussed in the general staff
meeting held on Monday September 11th and staff was informed that all such
procurements are prohibited effective immediately. Those in process will be
reviewed by the Acquisition Officer and or Executive Officer for approval.

We also want to express our thanks to your audit team they were extremely
professional and helpful. As a result of their efforts we will be making
significant improvements in our FM operations during the coming year.

Sincerely,

[signed by Gene Villagran for Katherine Almquist]




                                                                             6
